Audit Report




OIG-11-008
SAFETY AND SOUNDNESS: Failed Bank Review of First National
Bank, Savannah, Georgia
November 2, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             November 2, 2010


             OIG-11-008

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY


             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of First National Bank, Savannah,
                                   Georgia


             This memorandum presents the results of our review of the failure of First National
             Bank (First National) located in Savannah, Georgia. First National opened in April
             1996 and had a main office and three branches in the Savannah metropolitan area.
             The bank was a subsidiary of First National Corporation, a bank holding company
             also located in Savannah. The Office of the Comptroller of the Currency (OCC)
             closed First National and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on June 25, 2010. As of March 31, 2010, First National had
             $252.5 million in total assets. FDIC estimated that the loss to the Deposit
             Insurance Fund is $68.9 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of First National that was limited to (1) ascertaining the
             grounds identified by OCC for appointing the FDIC as receiver and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) examined documentation
             related to the appointment of FDIC as receiver, (2) reviewed OCC reports of
             examination for the 5 year period before the bank failure, and (3) interviewed OCC
             personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-008
Page 2



Causes of First National’s Failure
The primary cause of First National’s failure was the pursuit of growth without the
development of adequate risk management and credit administration practices. For
example, management did not possess meaningful concentration of credit reporting. In
addition, financial statements and other documentation needed to evaluate the ability
of borrowers to repay the loans were often missing or deficient. This resulted in a
portfolio of questionably underwritten, highly concentrated commercial real estate
loans in the Savannah metropolitan area. When confronted with a downturn in the
commercial real estate market, First National suffered diminished earnings and capital
and, ultimately, failure.

Conclusion
Based on our review of the causes of First National’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusion as to the causes of First
National’s failure and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.


Attachments
         OIG-11-008

       Attachment 1
Management Response
                                                   OIG-11-008

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
